  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




PROVIDERS DID NOT CORRECTLY BILL
MEDICARE PART B FOR THE ORAL FORM
       OF THE DRUG EMEND



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                        December 2012
                                                        A-07-11-04181
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS), which
administers the program, contracts with Medicare administrative contractors (Medicare
contractors) to process and pay Medicare claims submitted for outpatient services. The Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF) to process claims. The CWF can detect certain improper payments during prepayment
validation.

Medicare guidance requires providers to submit accurate claims to Medicare contractors for
outpatient services. Each submitted Medicare claim contains details about each provided service
(called a line item in this report).

This report focuses on aprepitant, one of three drugs in a regimen of oral anti-emetic drugs that
are prescribed to help reduce nausea and vomiting in chemotherapy patients. In this report we
refer to aprepitant by its brand name, Emend. The second anti-emetic drug in this regimen,
called a 5-HT3 antagonist, also helps reduce nausea and vomiting. The third anti-emetic drug,
dexamethasone, is an anti-inflammatory and immunosuppressant.

Prior to the Balanced Budget Act of 1997, Medicare Part B covered anti-emetic drugs that were
administered intravenously, but it did not cover anti-emetic drugs that were administered orally.
The Balanced Budget Act of 1997 amended the Act to provide coverage under Medicare Part B
for oral anti-emetic drugs that are approved by the Food and Drug Administration and
administered under certain conditions. The revised section of the Act generally authorizes
Medicare contractors to pay providers if the oral anti-emetic drug was administered under an
anticancer chemotherapy regimen and prescribed as a full replacement for other anti-emetic
drugs that would have been administered intravenously.

CMS stated, in a National Coverage Determination, that a three-drug oral anti-emetic regimen
consisting of Emend, a 5-HT3 antagonist, and dexamethasone meets the “reasonable and
necessary” standard for Medicare Part B payment only when prescribed for beneficiaries who are
also receiving at least one of nine specified anticancer chemotherapeutic agents.

CMS guidance in the Medicare Claims Processing Manual states that, for the oral form of
Emend to be payable as an outpatient service under Medicare Part B, providers must administer
or prescribe the oral three-drug regimen described above, along with at least one of the nine
specified anticancer chemotherapeutic agents, for use immediately before, at, or within 48 hours
of administering the anticancer chemotherapeutic agent. CMS guidance also states that the oral
anti-emetic drugs must fully replace anti-emetic intravenous therapy and, for drugs billed to the
Medicare contractor, be billed on the same claim for Emend to be allowable for a Medicare Part
B payment.




                                                 i
For calendar year (CY) 2010, Medicare contractors paid 725 providers a total of $3,410,359
under Medicare Part B for the oral form of Emend. Five providers, who received the highest
amounts of payments on claims for the oral form of Emend, billed 3,555 line items and were
paid $923,003 under Medicare Part B. For these 5 providers, we reviewed 2,105 billed line
items totaling $580,626 that were paid by Medicare contractors under Medicare Part B. (A
single Medicare claim from a provider typically includes more than one line item. In this audit,
we did not review entire claims; rather, we reviewed specific line items on claims for the oral
form of Emend.)

OBJECTIVE

Our objective was to determine whether providers correctly billed Medicare Part B for the oral
form of Emend.

SUMMARY OF FINDINGS

In general, the five selected providers that we reviewed did not correctly bill Medicare Part B for
the oral form of Emend. Of the 2,105 selected line items for which Medicare contractors made
payments to providers for the oral form of Emend during CY 2010, only 193 were correct. The
remaining 1,912 line payment amounts were incorrect because providers did not bill for all of the
required drugs in the regimen on the same claim as required; these errors resulted in
overpayments totaling $530,769. (During our fieldwork, the five selected providers informed us
that they had returned the overpayments after we showed them the improper payments.)

The five selected providers billed incorrectly because they were not aware of the Federal
requirements for the three-drug oral anti-emetic regimen until we made them aware of them
during our fieldwork. The Medicare contractors made incorrect payments because the CWF did
not have sufficient edits in place during our audit period to prevent or detect the overpayments in
cases where providers did not bill, on the same claim, all of the required drugs in the regimen.

RECOMMENDATIONS

We recommend that CMS:

   •   verify that the $530,769 in identified overpayments made to the five selected providers
       has been refunded to the Federal Government;

   •   direct the five selected providers to review the remaining CY 2010 line items on claims
       for the oral form of Emend that were not reviewed as part of this audit, as well as all
       subsequent claims, and refund any overpayments;

   •   develop and implement system edits to prevent payments for the oral form of Emend
       when providers do not bill for all of the required drugs in the regimen on the same claim;
       and

   •   use the results of this audit to educate providers.


                                                 ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with three of our four recommendations
and described corrective actions that it had taken or planned to take.

CMS did not concur with our third recommendation, pointing to instances when a patient may
already be receiving the oral 5-HT3 antagonist and dexamethasone at home for emesis (that is,
nausea and vomiting) related to the cancer but not related to chemotherapy. In such cases, CMS
stated, “it is likely that any edit would not in fact identify erroneous billing.” CMS added that it
would continue to investigate this issue and would provide an update on its planned course of
action at a later date.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that all of our findings and recommendations
remain valid. According to CMS guidance, for an oral anti-emetic drug such as Emend to be
allowable under Medicare Part B, it must be billed on the same claim as the other drugs in the
prescribed regimen. Although CMS raises important clinical issues in its comments on our draft
report, we maintain that an edit is appropriate to prevent improper Medicare Part B payments for
the oral form of Emend when providers do not bill in accordance with CMS’s instructions. We
support CMS’s continued evaluation of this issue and look forward to receiving an update on
CMS’s planned course of action in the future.




                                                 iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicare Program .........................................................................................................1
         Medicare Part B Coverage of Oral Anti-emetic Drugs .................................................1

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
         Objective ........................................................................................................................2
         Scope ..............................................................................................................................2
         Methodology ..................................................................................................................2

FINDINGS AND RECOMMENDATIONS ..............................................................................3

      FEDERAL REQUIREMENTS ..............................................................................................4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ..........................................................4
         Oral Three-Drug Regimen and at Least One of Nine Anticancer
           Chemotherapeutic Agents Not Present on Same Claim ............................................4
         All Drugs in Oral Three-Drug Regimen Not Present on Same Claim ..........................4
         At Least One of Nine Anticancer Chemotherapeutic Agents
           Not Present on Claim .................................................................................................5

      CAUSES OF INCORRECT MEDICARE PAYMENTS ......................................................5

      RECOMMENDATIONS .......................................................................................................5

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........................6

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................6

APPENDIX

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iv
                                       INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS), which
administers the program, contracts with Medicare contractors to process and pay Medicare
claims submitted for outpatient services. The Medicare contractors use the Fiscal Intermediary
Standard System and CMS’s Common Working File (CWF) to process claims. The CWF can
detect certain improper payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims to Medicare contractors for
outpatient services. Each submitted Medicare claim contains details about each provided service
(called a line item in this report).

Medicare Part B Coverage of Oral Anti-emetic Drugs

This report focuses on aprepitant, one of three drugs in a regimen of oral anti-emetic drugs that
are prescribed to help reduce nausea and vomiting in chemotherapy patients. In this report we
refer to aprepitant by its brand name, Emend. The second anti-emetic drug in this regimen,
called a 5-HT3 antagonist, also helps reduce nausea and vomiting. The third anti-emetic drug,
dexamethasone, is an anti-inflammatory and immunosuppressant.

Prior to the Balanced Budget Act of 1997, Medicare Part B covered anti-emetic drugs that were
administered intravenously, but it did not cover anti-emetic drugs that were administered orally.
The Balanced Budget Act of 1997, P.L. No. 105-33, amended section 1861(s)(2) of the Act to
provide coverage under Medicare Part B for oral anti-emetic drugs that are approved by the Food
and Drug Administration and administered under certain conditions. This section of the Act
generally authorizes Medicare contractors to pay providers if the oral anti-emetic drug was
administered under an anticancer chemotherapy regimen and prescribed as a full replacement for
other anti-emetic drugs that would have been administered intravenously.

CMS stated, in a National Coverage Determination (CAG-00248N, April 4, 2005), that a three-
drug oral anti-emetic regimen consisting of Emend, a 5-HT3 antagonist, and dexamethasone
meets the “reasonable and necessary” standard for Medicare Part B payment only when
prescribed for beneficiaries who are also receiving at least one of nine specified anticancer
chemotherapeutic agents.

CMS guidance in section 80.2 of chapter 17 of the Medicare Claims Processing Manual (the
Manual) states that, for the oral form of Emend to be payable as an outpatient service under
Medicare Part B, providers must administer or prescribe the oral three-drug regimen described
above for use immediately before, at, or within 48 hours of administering one of the nine
specified anticancer chemotherapeutic agents. The Manual also states that the oral anti-emetic
drugs must fully replace anti-emetic intravenous therapy and, for drugs billed to the Medicare


                                                 1
contractor, be billed on the same claim for Emend to be allowable for a Medicare Part B
payment.

Further, the Manual and related CMS guidance state that, for drugs billed to the Medicare
contractor, all three drugs in the oral anti-emetic regimen (Emend, a 5-HT3 antagonist, and
dexamethasone), as well as the qualifying anticancer chemotherapeutic agent, should be billed on
the same claim for Emend to be allowable for payment under Medicare Part B.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether providers correctly billed Medicare Part B for the oral
form of Emend.

Scope

For calendar year (CY) 2010, Medicare contractors paid 725 providers a total of $3,410,359
under Medicare Part B for the oral form of Emend. Our review covered the five providers who
received the highest amounts of payments on claims for the oral form of Emend. The 5 selected
providers billed 3,555 line items and were paid $923,003 for line items on claims for the oral
form of Emend. 1 Of these 3,555 line items, we judgmentally selected and reviewed 2,105 line
items for which 3 Medicare contractors paid the 5 selected providers $580,626. 2, 3

We limited our review of internal controls to the billing controls of the five providers who billed
for the oral form of Emend and to the existing CWF edits. Our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our audit
provided us with reasonable assurance that the data we obtained from the National Claims
History file was authentic and accurate. However, we did not assess the completeness of the file.

We performed our fieldwork from October 2011 to March 2012, which included contacting the
five selected providers who billed for the oral form of Emend.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, coverage determinations, and guidance;




1
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items on claims for the oral form of Emend.
2
 The three Medicare contractors that processed these line items were Cigna Government Services, National Health
Insurance Company, and TrailBlazer Health Enterprises, LLC.
3
    The 2,105 line items generally consisted of those with the highest dollar amounts.

                                                            2
    •   used CMS’s National Claims History file to identify outpatient claims that included the
        oral form of Emend (procedure code J8501) but that did not include the other required
        procedure codes associated with the oral anti-emetic regimen; 4

    •   identified the five providers that received the highest amounts of Medicare Part B
        payments for the oral form of Emend during CYs 2007 through 2010;

    •   for the five providers, reviewed 2,105 line items paid in CY 2010 that included outpatient
        claims billed for the oral form of Emend;

    •   contacted the five providers that received Medicare payments for the line items selected
        to determine whether the payment information for those items was correct and, if not,
        why the information was incorrect;

    •   reviewed documentation for the line items selected to determine whether billed drugs
        were actually administered, spreadsheets from providers that identified the amount of
        overpayments, and letters from the providers to their Medicare contractors explaining
        why the selected line items were billed incorrectly;

    •   evaluated the CWF edits;

    •   discussed the results of our review with CMS officials on April 3, 2012; and

    •   provided the results of the overpayments to CMS officials on May 22, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   FINDINGS AND RECOMMENDATIONS

In general, the five selected providers that we reviewed did not correctly bill Medicare Part B for
the oral form of Emend. Of the 2,105 selected line items for which Medicare contractors made
payments to providers for the oral form of Emend during CY 2010, only 193 were correct. The
remaining 1,912 line payment amounts were incorrect because providers did not bill for all of the
required drugs in the regimen on the same claim as required; these errors resulted in
overpayments totaling $530,769. (During our fieldwork, the five selected providers informed us
that they had returned the overpayments after we showed them the improper payments.)

The five selected providers billed incorrectly because they were not aware of the Federal
requirements for the three-drug oral anti-emetic regimen until we made them aware of them
during our fieldwork. The Medicare contractors made incorrect payments because the CWF did
4
  Procedure code J8501 is assigned for billing the oral form of Emend. Identifying billing based on the presence of
this procedure code and the absence of the other required procedure codes allowed us to identify cases when
providers did not bill for all of the required drugs in the regimen on the same claim.

                                                         3
not have sufficient edits in place during our audit period to prevent or detect the overpayments in
cases where providers did not bill, on the same claim, all of the required drugs in the regimen.

FEDERAL REQUIREMENTS

Section 4557 of the Balanced Budget Act of 1997, P.L. No. 105-33, amended section 1861(s)(2)
of the Act to provide coverage under Medicare Part B for oral anti-emetic drugs that are
approved by the Food and Drug Administration and administered under certain conditions. This
section of the Act generally authorizes Medicare contractors to pay providers if the oral anti-
emetic drug was administered under an anticancer chemotherapy regimen and prescribed for use
as a full replacement for other anti-emetic drugs that would have been administered
intravenously.

In the Manual, chapter 17, section 80.2, and in a National Coverage Determination
(CAG-00248N, April 4, 2005), CMS stated that the three-drug oral anti-emetic regimen
consisting of Emend, a 5-HT3 antagonist, and dexamethasone meets the “reasonable and
necessary” standard for Medicare Part B payment only when prescribed for beneficiaries who are
also receiving at least one of nine specified anticancer chemotherapeutic agents. 5

The Manual and related Change Request 5655 (dated July 6, 2007) state that, for drugs billed to
the Medicare contractor, all three drugs in the oral anti-emetic regimen (Emend, a 5-HT3
antagonist, and dexamethasone), as well as the qualifying anticancer chemotherapeutic agent,
should be billed on the same claim for Emend to be allowable for payment under Medicare Part
B.

OVERPAYMENTS FOR SELECTED LINE ITEMS

Oral Three-Drug Regimen and at Least One of Nine Anticancer
Chemotherapeutic Agents Not Present on Same Claim

Four providers incorrectly billed Medicare Part B for 1,098 line items on claims for the oral form
of Emend. These providers did not bill for all of the drugs that make up the three-drug oral anti-
emetic drug regimen, and did not bill at least one of the nine specified anticancer
chemotherapeutic agents, on the same claim. This error resulted in overpayments to the four
providers totaling $301,701.

All Drugs in Oral Three-Drug Regimen Not Present on Same Claim

Four providers incorrectly billed Medicare Part B for 185 line items on claims for the oral form
of Emend. These providers did not bill all of the drugs that make up the three-drug oral anti-
emetic drug regimen on the same claim. This error resulted in overpayments to the four
providers totaling $54,857.



5
 National Coverage Determinations are binding on all Medicare contractors and, based on 42 CFR §§ 405.732 and
405.860, are also binding on administrative law judges during the claim appeal process. The title of the relevant
National Coverage Determination is “Decision Memo for Aprepitant for Chemotherapy-Induced Emesis.”

                                                        4
At Least One of Nine Anticancer Chemotherapeutic Agents
Not Present on Claim

Four providers incorrectly billed Medicare Part B for 629 line items on claims for the oral form
of Emend. Although these providers billed for all of the drugs that make up the three-drug anti-
emetic drug regimen on the same claim, those claims did not include any of the nine specified
anticancer chemotherapeutic agents. This error resulted in overpayments to the four providers
totaling $174,211.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The five selected providers billed incorrectly because they were not aware of the Federal
requirements for the three-drug oral anti-emetic regimen until we made them aware of them
during our fieldwork. The Medicare contractors made incorrect payments because the CWF did
not have sufficient edits in place during our audit period to prevent or detect the overpayments in
cases where providers did not bill, on the same claim, all of the required drugs in the regimen.

CMS guidance designates the procedure codes that should be billed on each claim for the oral
form of Emend. CMS guidance in the Manual also states that “[t]he CWF edits claims with
these codes to assure that the beneficiary is receiving the oral anti-emetic(s) as part of a cancer
chemotherapeutic regimen by requiring a diagnosis of cancer.” However, not all of the
procedure codes for the three-drug anti-emetic regimen are in the Manual.

Moreover, although the existing edits require a diagnosis code of cancer, they do not ensure that
the required combination of procedure codes (that correctly reflects all of the drugs in the three-
drug oral anti-emetic regimen and one of the nine required anticancer chemotherapy agents) is
billed on the same claim pursuant to Federal requirements.

During our fieldwork, the five selected providers informed us that they had returned the
overpayments after we showed them the improper payments.

RECOMMENDATIONS

We recommend that CMS:

   •   verify that the $530,769 in identified overpayments made to the five selected providers
       has been refunded to the Federal Government;

   •   direct the five selected providers to review the remaining CY 2010 line items on claims
       for the oral form of Emend that were not reviewed as part of this audit, as well as all
       subsequent claims, and refund any overpayments;

   •   develop and implement system edits to prevent payments for the oral form of Emend
       when providers do not bill for all of the required drugs in the regimen on the same claim;
       and

   •   use the results of this audit to educate providers.


                                                  5
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with three of our four recommendations
and described corrective actions that it had taken or planned to take.

CMS did not concur with our third recommendation, pointing to instances when a patient may
already be receiving the oral 5-HT3 antagonist and dexamethasone at home for emesis (that is,
nausea and vomiting) related to the cancer but not related to chemotherapy. In such cases, CMS
stated, “it is likely that any edit would not in fact identify erroneous billing.” CMS added that it
would continue to investigate this issue and would provide an update on its planned course of
action at a later date.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that all of our findings and recommendations
remain valid. According to CMS guidance, for an oral anti-emetic drug such as Emend to be
allowable under Medicare Part B, it must be billed on the same claim as the other drugs in the
prescribed regimen. Although CMS raises important clinical issues in its comments on our draft
report, we maintain that an edit is appropriate to prevent improper Medicare Part B payments for
the oral form of Emend when providers do not bill in accordance with CMS’s instructions. We
support CMS’s continued evaluation of this issue and look forward to receiving an update on
CMS’s planned course of action in the future.




                                                 6
APPENDIX
                                                                                                                              Page 1 of3


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

 /   .......... 

(	      ~             DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers lor Medicare & Medicaid ServiC9s


 ,~"'" 	                                                                                         Administrator
                                                                                                 Washington, DC 20201




                    DATE: 
         OCT 022011
                    TO:           Gloria L. Jarmon 



                    FROM:



                    SUBJECT: 	 Office of Inspector General Draft Report: " Providers Did Not Correctly Bill
                               Medicare Part B for the Oral Fonn of the Drug Emend" (A -07-11-04l81)

                    The Centers for Medicare & Medicaid Services (eMS) appreciates the opportunity to review and
                    comment on the Office of Inspector General (010) Draft Report entitled, " Providers Did Not
                    Correctly Bill Medicare Part B for the Oral Fonn of the Drug Emend" (A-07-11-04181 ). The
                    objective of this study was to determine whether providers correctly billed Medicare Pan B for
                    the oral form of Emend.

                    This report focused on aprepitant, one of three drugs in a regimen of oral anti-emetic drugs that
                    are prescribed to help reduce nausea and vomiting in chemotherapy patients. In this report, the
                    audit referred to aprepitant by its brand name, Emend. The second anti-emetic drug in thi s
                    regimen, called a 5-HT3 antagonist, also helps reduce nausea and vomiting. The third
                    anti-emetic drug, dexamethasone, is an anti-inflammatory and immunosuppressant.

                    The eMS issued Medicare Claims Processing instructions on July 7, 2007, stating that the three
                    drug combination protocol requires the first dose be administered before, during, or immediately
                    after the anti-cancer chemotherapy administration. The second day is defined as within 24 hours
                    and the third day is defined as withi n 48 hours of the c hemotherapy administration. To fac ilitate
                    coverage reviews, providers should bill all three drugs in the oral anti-emetic combinations as
                    well as the qualifying highly emetogenic anti-cancer agents on the same claim. The OIG audit
                    identified five providers that billed Medicare B incorrectly for the oral fonn of Emend.

                    The CMS appreciates OIG' s efforts in working with us to help identify Emend billing issues.
                    Our response to each of the oro recommendations follows.
                                                                                                     Page 2 of3




OIG Recommendation

Verify that the $530,769 in identified overpayments made to the five selected providers has been
refunded to the Federal Government.

eMS Response

The eMS concurs with this recommendation. Upon receipt of the data from DIG, eMS will
contact the appropriate contractors to determine jfthe five selected providers refunded the
federal government. OIG should furnish eMS with information related to each of the five
providers including, at a minimum, the provider number, the overpayment amount , the
Medicare contractor number, and the claims information (including the paid date, HIe numbers,
etc.).

OIG Recommendation

Direct the five selected providers to review the remaining CY 2010 line items on claims for the
oral form of Emend that were not reviewed as part of this audit, as well as all subsequent claims,
and refund any overpayments.

eMS Response

The eMS concurs with the recommendation. eMS requests that the DIG furnish the
overpayment data (Medicare contractor numbers, provider numbers, claims information
including the paid date, HIC numbers, etc.) for each of the five providers referenced in the audit
report in order for eMS to begin the review and recovery process. In addition, we ask that the
OIG provide eMS with the contractor specific data on separate CD-ROMs, separate hardcopy
worksheets, or transmit the data to CMS electronically using the secure HHSIDIG web porta1 to
better facilitate the transfer of information to the appropriate contractors.

OIG Recommendation

Develop and implement system edits to prevent payments for the oral fonn of Emend when
providers do not bill for all of the required drugs in the regimen on the same claim.

eMS RespoDse

The eMS non-concurs with this recommendation. There are incidences when a patient may
already have oral S-HT3 and dexamethansone at home for emesis related to the cancer as
opposed to the chemotherapy, so it is likely that any edit would not in fact identify erroneous
billing. We wi1l continue to investigate this issue and will provide an update on our planned
course of action at a later date.
                                                                                                   Page 3 of3




OIG Recommendation

Use the results of this audit to educate providers.

eMS Response

The eMS concurs with this recommendation. Since 2000, eMS has produced national provider
education materials for Medicare fee-for-service (FFS) providers under the brand name of the
Medicare Learning Network® (MLN). One of the most popular of these materials are national
articles, referred to as MLN Matters®. designed to inform Medicare FFS providers about the
latest changes to the Medicare Program.

The eMS released two such articles related to thi s report 's topic.
   ;;.. 	 The first was MM 5655, "Clarification on Billing/or the Oral Three Drug Combination
          Anti-Emetic (Aprepitant) " released on March 5, 2008. This article was subsequently
          revised on March 18, 2008, to add additional clarifying language to " Provider Action
          Needed" and " Background" (http://www.cms.gov/Outreach-and-EducationlMedicare­
          Leaming-Network-MLNIMLNMattersAtticlesiDownloadsIMM5655.pdO.
   );> 	 The second article was SE0910, "Clarification/or Billing ParI B versus Part D for the
          Anti-emelic Aprepilanl (Emend®)" released on June 11 ,2009
          (http: //www.cms.gov/Outreach-and-EducationlMedicare-Leaming-Network-
          MLN/M LNMattersArticlesIDownloadslSE091 O.odO.

All MLN Matters® articles are heavi ly marketed to the provider community through the MLN
Matters® electronic mai ling li st, which currently has over 25 ,500 subscribers. We also market
MLN products and articles through other electronic mailing li sts, ultimately reaching over 4
million subscribers .

The CMS will be happy to re-market the MLN Matters® articles mentioned above. In addition,
we will detennine if additional types of educational materials are warranted, and will proceed
from there with the development of these materials, as necessary .

The CMS thanks the OIG for the opportunity to review and comment on this report .
